                                                    U.S. Department of Justice

                                                    Rosa Emilia Rodríguez-Vélez
                                                    United States Attorney
                                                    District of Puerto Rico


                                                    Torre Chardón, Suite 1201        (787) 766-5656
                                                    350 Carlos Chardón Street
                                                    San Juan, Puerto Rico 00918



FOR IMMEDIATE RELEASE                               Contact:         U.S. Attorney’s Office
Date: September 5, 2013                                              Lymarie V. Llovet-Ayala
                                                                     Public Affairs Specialist
                                                                     (787) 766-5656; (787) 340-1835

              ARREST AND INDICTMENT OF TEN CURRENT AND FORMER
             U.S. POSTAL SERVICE EMPLOYEES AND TWO DOCTORS FOR
                           WORKERS’ COMPENSATION FRAUD
            Defendants face a combined forfeiture allegation of over $620,000.00

        SAN JUAN, P.R. - On August 30, 2013 a Federal Grand Jury in the District of Puerto
Rico returned twelve separate Indictments charging ten current and former U.S. Postal Service
(USPS) employees and two doctors, Luis E. Faura-Clavell and Alfonso A. Madrid-Guzmán, with
fraud associated with Department of Labor (DOL) Office of Workers’ Compensation Programs
(OWCP). This program provides wage loss and medical benefits to employees who have become
injured in the course of their official capacity within the USPS and are unable to work due to
disability, announced United States Attorney for the District of Puerto Rico, Rosa Emilia
Rodríguez Vélez.

        A two year investigation led by the USPS-Office of Inspector General (OIG), with
assistance from the FBI, Social Security Administration-OIG, Health and Human Services-OIG,
the DOL-OIG and the Puerto Rico Police Department targeted fraud associated with OWCP
claims.

       Postal Service employees are covered by the Federal Employees’ Compensation Act
(FECA), which provides tax-free benefits to civilian federal employees who sustain injuries or an
occupational disease as a result of their employment. Postal employees can receive up to 75
percent if there is at least one dependent. The Postal Service is the largest FECA participant,
paying more than $1 billion in benefits and $60 million in administrative fees annually.

        Pursuant to OWCP guidelines, a claimant must prove that he or she is disabled by
furnishing medical documentation and other evidence with their work related claim. The
employee’s claim and supporting medical evidence is then evaluated by the OWCP to determine
the claimant’s medical impairments and the effect of the impairment on the claimant’s ability to
work on a sustained basis.
       The investigation initially focused on doctor Luis E. Faura-Clavell and the medical
documentation he completed to support the permanent disability of USPS claimants.
Subsequently the investigation revealed Faura-Clavell and Alfonso A. Madrid-Guzmán, would
evaluate and diagnose the claimants in an effort to justify a non-existent injury in order to
deceive and persuade the OWCP to award the claimants with workers compensation benefits.
The doctors would charge fees ranging up to 1,650.00 dollars for the preparation of the
fraudulent medical reports.

    During the investigation, additional evidence revealed six of the ten aforementioned
OWCP claimants also fraudulently received Social Security Administration Disability benefits.

       The defendants who illegally received the workers’ compensation benefits are: Bernardo
Brito-Franco; Rodolfo Vázquez-Soto; Félix Ortiz-Vázquez; Miguel Plaza-Nieves; Wilma T.
Fontán; Moisés Rivera-Aponte; Samuel Badillo-Muñiz; Ricardo Rivera-Ortiz; Rafael Espinet-
García; Lydia Rivera-Rodríguez. All the defendants are facing forfeiture allegations totaling
more than $620,000.00.

       Brito-Franco is also charged with health care fraud.

        “The Department of Justice is strongly committed to promoting compliance with federal
program laws and regulations,” said United States Attorney, Rosa Emilia Rodríguez-Vélez.
“These arrests demonstrate that we will not tolerate criminals who engage in fraudulent schemes
which deplete funds of federal benefit programs which are destined for disabled individuals who
really need and are entitled to them. We will continue to vigorously pursue this systemic
problem.”

         “Today's indictments should send a clear message to doctors and Postal employees that
defrauding the federal workers’ compensation program will not be tolerated,” said Rafael
Medina, Special Agent in Charge of the Postal Service Office of Inspector General. “Anyone
who helps Postal employees commit workers’ compensation fraud should know, this is only the
start of our investigative efforts to expose these false claims.”

       Special Agent-in-Charge Edward J. Ryan of the Office of the Inspector General, Office
of Investigations of the Social Security Administration stated “These fraud conspiracy schemes
involving unscrupulous medical professionals and disability claims has been exposed and those
involved are being brought to justice. Our cooperative investigative work targeting these
conspiracies continues. OIG will continue to work with our partners to protect the integrity of
the Social Security Trust Fund and the other federal compensation programs.”

       “We are proud to be a part of the federal team that brought these defendants to justice for
defrauding Medicare by illegally becoming enrolled in the Program,” said Thomas O’Donnell,
Special Agent in Charge of the Office of Inspector General’s New York Regional Office which
also covers Puerto Rico. “Individuals who take advantage of Medicare benefits for which they do
not qualify are not only diminishing funds meant for legitimate Medicare beneficiaries, they are
also defrauding the taxpayers. HHS/OIG will continue to work with our law enforcement
partners in the battle against this type of eligibility fraud”.

       “Today’s arrests highlight the OIG’s commitment to investigate fraud against the Federal
employees’ compensation program, which provides workers’ compensation coverage to Federal
employees for work-related injuries and illnesses. The OIG will continue to work with our law
enforcement partners to investigate these types of fraud,” stated Gordon S. Heddell, Acting
Deputy Inspector General of the U.S. Department of Labor.

       The case was investigated by the USPS-OIG with the collaboration of the FBI,
aforementioned OIGs and the Puerto Rico Police Department. The case was indicted by First
Assistant U.S. Attorney Maria Dominguez.

                                             ###
